KURZBAN KURZBAN
TETZELI & PRATT
ATTORNEYS AT LAW

TRA KURZBAN - FOUNDER,

JED KURZBAN - PARTNER
HELENA TETZELI - PARTNER
JOHN PATRICK PRATT - PARTNER
EDWARD RAMOS - PARTNER
KEVIN A. GREGG - PARTNER

July 20, 2021

By Electronic Filing And Hand Delivery
Honorable Scott S. Harris

Supreme Court of the United States

1 First Street NE

Washington, DC 20543

Re: Patel vy. Garland, No. 20-979

Dear Mr. Harris,

131 MADEIRA AVENUE

CORAL GABLES, FLORIDA 33134
‘TELEPHONE (305) 444-0060
TELECOPIER (305) 444-3503
WWW.KKTPLAW.COM

The petition for a writ of certiorari in this case was granted on June 28, 2021. Given the
press of other matters, I respectfully request that both parties be granted additional time to file

their briefs on the merits, with the following deadlines:
Opening briefs on the merits: August 31, 2021

Court-appointed
amicus curiae’s brief on the merits: October 19, 2021

Under this schedule, reply briefs would be due on November 18, 2021. Counsel for the
United States and the Court-appointed amicus curiae in support of the judgment below have

agreed to this schedule.
Thank you for your assistance.
Respectfully submitted,
Ban
rel, lureba let D

Tra J. Kurzban
Counsel for Petitioner

cc: Austin Raynor, Counsel for the United States (by electronic mail); Taylor Ann Rausch Meehan,
Court-Appointed Amici Curiae in Support of Judgment Below (by electronic mail)
